                                                       
                                                   
                                                   
 
 
 
 




                                               
 




    AUDIT OF THE OFFICE OF JUVENILE JUSTICE AND 

    DELINQUENCY PREVENTION’S RESEARCH AWARD 

      TO THE NATIONAL COUNCIL ON CRIME AND 

                   DELINQUENCY

                              
                              
                U.S. Department of Justice 

              Office of the Inspector General 

                       Audit Division 


                    Audit Report 12-41 

                     September 2012

 
    AUDIT OF THE OFFICE OF JUVENILE JUSTICE AND 

 DELINQUENCY PREVENTION’S RESEARCH AWARD TO THE 

   NATIONAL COUNCIL ON CRIME AND DELINQUENCY 


                        EXECUTIVE SUMMARY

       The Office of Juvenile Justice and Delinquency Prevention (OJJDP)
awards various research grants to public and private organizations. In
February 2011, Crime Victims United (CVU), a crime victim advocacy group,
alleged a conflict of interest existed in the OJJDP’s award of a 2009 research
grant to the National Council on Crime and Delinquency (NCCD). The
purpose of NCCD’s award was to evaluate the effectiveness of the Juvenile
Detention Alternatives Initiative (JDAI) program developed by the Annie E.
Casey Foundation (Casey Foundation). The complainant alleged NCCD had a
conflict of interest because NCCD had listed the Casey Foundation as a
supporter and given its president an award in 2006. The objectives of this
audit were to determine whether: (1) the OJJDP award to NCCD was made
fairly and appropriately; and (2) NCCD had any actual or potential conflicts
of interest that may adversely affect its performance.

      Our audit found no evidence that the OJJDP inappropriately awarded
the 2009 research grant to NCCD. We assessed the peer review process
that the OJJDP used to rank applicants for the 2009 award. NCCD had the
highest score and the selection complied with relevant guidance from the
Associate Attorney General.

       However, we identified some prior transactions between NCCD and the
Casey Foundation. Over 5 years, NCCD received $139,500 of its
approximately $43 million revenue from the Casey Foundation. Although
not required to do so by the OJJDP, NCCD disclosed its prior financial
relationship with the Casey Foundation in its grant application. While a prior
relationship between NCCD, the assessing entity, and the Casey Foundation,
the entity whose program NCCD would be assessing under the grant, could
constitute a conflict of interest, neither OJP nor the OJJDP has criteria
regarding such prospective conflicts. Accordingly, we had no standard to
apply to determine whether a conflict existed with respect to the awarding of
a grant to NCCD to assess the performance of a program developed by a
minor funding source of the grantee. NCCD has not yet completed its
report, so we were unable to state whether its final product was objective in
assessing the Casey Foundation’s JDAI program. However, during our audit
we did not find evidence that the prior relationship between NCCD and the
Casey Foundation biased NCCD’s methodology for evaluating the JDAI
program in favor of its developer. Nevertheless, we make two
recommendations to address the lack of a conflict of interest standard.




                                      ii 

                               TABLE OF CONTENTS

                                                                                         Page


INTRODUCTION .................................................................................1 


OIG AUDIT APPROACH ......................................................................2 


BACKGROUND....................................................................................2 


APPROPRIATENESS OF THE OJJDP AWARD PROCESS ........................5 


CONFLICT OF INTEREST ANALYSIS..................................................10 


CONCLUSION ...................................................................................23 


RECOMMENDATIONS .......................................................................24 


STATEMENT ON INTERNAL CONTROLS.............................................25 


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS .......26 


APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY ...................27 


APPENDIX II: CRIME VICTIMS UNITED COMPLAINT LETTER ...........30 


APPENDIX III: OJP RESPONSE TO THE DRAFT REPORT ...................35 


APPENDIX IV: OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT............39 

This page intentionally left blank




              1

                
                                                               INTRODUCTION

      The Office of Juvenile Justice and Delinquency Prevention (OJJDP),
part of the Office of Justice Programs (OJP) within the Department of Justice
(DOJ), coordinates federal efforts to combat juvenile delinquency in part by
awarding grants to public and private organizations. In February 2011,
Crime Victims United (CVU), a crime victim advocacy group, wrote a letter to
the Office of the Inspector General (OIG) alleging a conflict of interest in the
OJJDP’s award of Grant No. 2009-JF-FX-0072 to the National Council on
Crime and Delinquency (NCCD).1 NCCD is a nonprofit research organization
specializing in child welfare and juvenile justice issues that finances its
operations through grants and contracts from federal, state, and local
governments, supplemented by contracts and donations from charitable
foundations.

       The purpose of the 2009 grant award was to evaluate the
effectiveness of the Juvenile Detention Alternatives Initiative (JDAI) program
developed by the Annie E. Casey Foundation (Casey Foundation).2 The
complainant alleged that NCCD had a conflict of interest with the Casey
Foundation, because NCCD listed the foundation as one of its supporters and
had awarded the Casey Foundation and its president with NCCD’s Katie
Nichols Award in 2006. Additionally, the complaint alleged that the Acting
OJJDP Administrator either knew or should have known that NCCD was not
an appropriate agency to review the JDAI program.

       We discussed the allegations with the complainant, who believed that
the OJJDP had already chosen to endorse JDAI and that the results of the
research evaluation would be used to support the OJJDP’s endorsement of
the program.  Other individuals associated with the complainant also
believed that results of a previous NCCD study in 1999, which was a study of
the five original JDAI sites, would bias its 2009 evaluation and that the
OJJDP should not have used federal tax dollars for this project. The

                                                            
              1
           The complaint letter can be found in Appendix II. According to federal regulations
and DOJ ethics policy pertaining to federal employees, conflicts of interest exist where an
employee participates in particular matters that directly affect or appear to affect the
private interest, financial or non-financial, of the employee or any member of his or her
household, or where a reasonable person with knowledge of the relevant facts would
question the employee’s impartiality in the matter. 5 C.F.R. § 2635.402 and 2635.501 et
seq. and U.S. Department of Justice Ethics Handbook, January 2010, 2.
          
        2
           The Casey Foundation is a private charitable organization that works on issues
affecting disadvantaged children. JDAI is a framework for juvenile justice reform that aims
to reduce reliance on secure detention of juveniles.
               

                                                                   2

                                                                     
complainant asked the OIG to examine the appropriateness of this grant
award and evaluate adherence to relevant policies governing the award.

OIG Audit Approach

       The OIG initiated this audit to determine (1) whether the award to
NCCD was made fairly, appropriately, and in accordance with applicable laws
and regulations; and (2) whether NCCD has any actual or potential conflicts
of interest that may adversely affect its performance under the award.

       To assess the allegation that the OJJDP made an inappropriate award
to NCCD and whether NCCD’s performance under the grant may be
impaired, we interviewed the Juvenile Justice Policy Advisor for CVU and two
juvenile probation officials that CVU referred to us. We also interviewed
officials responsible for the OJJDP’s fiscal year (FY) 2009 Field Initiated
Research and Evaluation (FIRE) solicitation, peer review, and award
decision.3 We verified the scoring documents and also examined the résumé
material of the peer reviewers who scored NCCD’s application and the NCCD
employees working on this grant project. We met with OJJDP grant
managers to discuss NCCD’s performance under the award and reviewed the
grant application, project methodology, past research, and progress reports.
To assess NCCD’s relationship with the Casey Foundation, we examined
NCCD’s financial records. Additionally, we interviewed NCCD personnel
conducting the evaluation and met with representatives from the Casey
Foundation who are collaborating with NCCD on the project. Appendix I
contains a more detailed description of our audit objectives, scope and
methodology.

Background

      In 1974, Congress enacted the Juvenile Justice and Delinquency
Prevention Act (JJDP Act), which established the OJJDP to support local and
state efforts to prevent delinquency and improve the juvenile justice system.
The JJDP Act contains four core requirements: (1) deinstitutionalization of
“status” offenders; (2) separation of juveniles from adult offenders;
(3) removal of juveniles from adult jails and lockups; and (4) reduction of
disproportionate minority contact, which is a term characterizing the
disparity between minority youth and non-minority youth in the justice


                                                            
              3
           A solicitation is a publicly available document by which a federal agency declares
its intentions to award discretionary grants or cooperative agreements, usually as a result of
competition for funds. The NCCD award was made through the FY 2009 FIRE solicitation.


                                                               3

                                                                 
system.4 The OJJDP is charged with monitoring and providing training and
technical assistance to identify best practices and methods that states can
use to achieve and maintain compliance with the JJDP Act.

      In FY 2009, the OJJDP issued a solicitation through its FIRE program to
support evaluations testing the effectiveness of programs and strategies that
assist states in achieving and maintaining compliance with one or more of
the four core requirements of the JJDP Act. The OJJDP invited public
agencies and private organizations to apply for grants and planned to make
multiple awards, depending on the availability of funding.5

      According to the solicitation, the OJJDP sought to enhance the general
understanding of “what works” to help states and local communities achieve
compliance with core requirements of the JJDP Act. The solicitation also
encouraged collaboration between researchers and practitioners and
required applicants to provide written commitments of any planned
collaboration.   The OJJDP made three awards under the solicitation, including
an award of $500,000 to NCCD for a process and outcome evaluation of
communities that adopted JDAI and any associated reductions in
unnecessary detention of status offenders or decreases in disproportionate
minority contact.6

Juvenile Detention Alternatives Initiative (JDAI)

      JDAI is a framework for state and local juvenile detention reform
organized around eight strategies: (1) collaboration, (2) use of accurate
data, (3) development of objective admissions criteria and risk assessment
instruments, (4) implementation of alternatives to detention, (5) reform of
case processing, (6) reexamination of special detention cases that may
result in automatic detention, (7) reduction of racial disparities, and (8) the
monitoring of conditions of confinement. The Casey Foundation provides
grants to communities implementing JDAI, as well as training and technical
assistance to help sites to build their data collection capacities and employ



                                                            
              4
         Status offenses are acts such as truancy, running away, or curfew violations, that
are considered illegal only when juveniles commit them. 42 U.S.C. § 5601 et seq. (2002).
              5
           An OJJDP official said the office sends notification of its funding opportunities to a
list of approximately 23,000 – 25,000 email contacts and also posts a link to the
solicitations on its public website.

              6
                   The award period for this project is 10/01/2009 - 9/30/2012.


                                                               4

                                                                 
objective screening instruments for detention decisions.7 The Casey
Foundation also provides JDAI sites with consultants who function as
Technical Assistance Team Leaders and work with multiple sites on JDAI
implementation.

       According to data from the Casey Foundation, there are JDAI sites in
33 states as well as the District of Columbia. Officials from the Casey
Foundation told us there are approximately 140 localities implementing
JDAI. A JDAI site can be either an individual county or state; a state can be
designated as a “JDAI state” even if not all of the counties in the state
participate.

NCCD’s Grant Application

        In its 2009 FIRE grant application, NCCD proposed partnering with the
Casey Foundation to perform a process and outcome evaluation of 10 of the
more than 100 localities which had implemented JDAI at that time. NCCD
disclosed in its application that it had a previous working relationship with
the Casey Foundation and that NCCD had performed an evaluation of the
initial JDAI sites in 1999. In addressing the collaboration element of the
FIRE solicitation, NCCD also stated in its project narrative that it had “a long
history of successful collaboration” and “ongoing open lines of
communication and mutual respect” with the Casey Foundation. In
accordance with the solicitation requirements, NCCD submitted a letter of
commitment from the Casey Foundation expressing the foundation’s
willingness to “partner with NCCD in an examination of JDAI to identify and
document effective programs and strategies.” The Casey Foundation agreed
to provide NCCD with information, contacts, and data from the JDAI sites
and offered to respond to questions, clarify issues that may arise, and
otherwise support NCCD's research.

      NCCD proposed a project methodology in its application that would
make detailed case studies of successful JDAI locations to determine which
program elements worked best to reduce detention of status offenders and
to lessen racial and ethnic disparities in detention and other stages of the
juvenile justice system. Based on the results of this analysis, NCCD planned
to compile replication guidelines to assist states in achieving compliance with
the JJDP Act’s core requirements.



                                                            
              7
          The Casey Foundation’s JDAI grants may be used to pay for a JDAI coordinator
position employed by each site and fund travel to trainings, conferences, meetings, or other
sites. The grants are renewed annually.

                                                               5

                                                                 
Appropriateness of the OJJDP Award Process

       To determine whether the OJJDP’s 2009 award to NCCD was made
fairly, appropriately, and in accordance with applicable laws and regulations,
we examined the OJJDP’s 2009 FIRE solicitation, NCCD application materials,
the OJP process used to review and select the awards under the FIRE
solicitation, and the résumés of the peer reviewers who scored the NCCD
application. We also verified the peer review scores for all 2009 FIRE
applications.

2009 FIRE Solicitation

       We found that the 2009 FIRE solicitation was broadly written to include
the study of any strategies to help meet the JJDP Act’s requirements. OJJDP
personnel stated that the 2009 FIRE solicitation was designed to obtain
research on successful approaches to help sites comply with the core JJDP
Act requirements. OJJDP officials also told us that they had received
feedback from states seeking strategies for compliance with the JJDP Act,
and the OJJDP planned to use the deliverables of the 2009 grants for state
training and technical assistance. OJJDP officials explained that while the
FIRE research may produce negative results, the focus of the 2009 FIRE
solicitation was on identifying and understanding “what worked” to meet one
or more of the four core objectives of the JJDP Act, and that most of the
applications for the 2009 solicitation aimed to address the detention of
status offenders or disproportionate minority contact in the juvenile justice
system.

       We also found that the OJJDP made the 2009 FIRE solicitation publicly
available to a wide audience of prospective applicants, and the solicitation
encouraged multi-disciplinary research collaborations, including
collaborations between researchers and practitioners.8 Further, we found no
specific reference to JDAI in the solicitation. Therefore, we conclude that the
OJJDP did not specifically design the 2009 FIRE solicitation to obtain
favorable research regarding JDAI in particular and did not bias the
solicitation toward any particular applicant.

Peer Review and Award Decision

       The OJJDP received 17 applications in response to the 2009 FIRE
solicitation. The OJJDP then used OJP’s external peer review process,
                                                            
              8
         The solicitation directed applicants to include in their applications letters of
commitment or cooperation from the relevant program or agency that would be involved
with the evaluation.


                                                               6

                                                                 
managed by Lockheed Martin under a 2-year consolidated contract, to
review the applications for basic minimum requirements and obtain subject
matter experts.9 The process for the 2009 FIRE awards involved two peer
review scoring panels of three peer reviewers per panel. One panel
reviewed nine applications; the other panel reviewed eight applications.
The peer reviewers scored the applications according to set criteria outlined
in the solicitation. The applications were ranked according to peer review
score and these rankings were reported to the OJJDP Acting Administrator
and the Acting Assistant Attorney General for OJP through a
recommendation memorandum.

              Peer Reviewer Qualifications and Eligibility

       According to the OJP Peer Review Procedure Manual, the peer
reviewers were instructed to access their assigned applications and review
them carefully for any possible conflicts of interest before beginning the
scoring process. The peer reviewers were also asked to sign a conflict of
interest form after reviewing the list of applications assigned, attesting that
they did not have a conflict of interest with any of the applications and that
if a conflict of interest became apparent as the peer reviewer read the
application, the peer reviewer would disclose this conflict of interest to OJP.10
If the peer reviewers did not identify any conflicts of interest, they were
permitted to begin reading the grant applications.

       We reviewed the signed conflict of interest forms for each of the three
peer reviewers assigned to score the NCCD application. The peer reviewers
were instructed to confirm their access to the applications and complete a
conflict of interest form within 2 business days of receipt of an introductory
email from the project lead along with the required forms. We compared the
dates the peer reviewers signed the forms to the dates when peer reviewers
received and scored the applications.



                                                            
              9
          An external peer review is conducted by subject matter experts who are not
employees of the U.S. Department of Justice. A review for basic minimum requirements
checks for compliance with application requirements such as page length, required
components, and funding requests. According to OJJDP personnel, all 17 applications met
the basic minimum requirements and these applications all advanced to the peer review
panels.
              10
           Examples of peer reviewer conflicts of interest from this form include current
employment or collaborative efforts with an applicant, close personal or familial relationship
with staff members listed on the application, former employment with OJP within the past
year, or receipt of gifts or gratuities from applicant staff within the past year.


                                                               7

                                                                 
       We found that these three peer reviewers appropriately completed
their conflict of interest forms within 2 business days after gaining access to
the applications, as directed in the peer review procedure manual. We also
found that the reviewers completed the conflict of interest forms between 6
and 9 days prior to the consensus call.11 Because the peer reviewers must
have completed preliminary scores by the time of the consensus call, the
date of the consensus call represents the earliest conclusive date we could
obtain indicating scoring efforts. Therefore, we conclude that the three
reviewers submitted conflict of interest forms after receiving the forms, but
prior to scoring the applications, which was in accordance with the steps
outlined in the peer review procedure manual.

      Additionally, we reviewed the résumés of each of the peer reviewers
assigned to score the NCCD application for any indication of a conflict of
interest.12 We examined the prior employment and research history details
in the résumé material from these three peer reviewers and did not find
evidence of a prior working relationship with NCCD or the Casey Foundation.
Thus, based on these documents, we did not find any evidence that the peer
reviewers had conflicts of interest that might have influenced their review of
NCCD’s application.

              Scoring Process

      According to the peer review procedure manual, OJP holds an
orientation call with the peer reviewers so that the solicitation manager can
explain the background of the solicitation, provide logistical information,
explain the variance threshold guidelines for application scoring, and allow
peer reviewers to ask questions.13 The reviewers then review and score the
applications.

      After scoring the applications under the FY 2009 FIRE solicitation, the
peer reviewers from each panel participated in a consensus call with a
                                                            
              11
          The consensus call is an opportunity to discuss variances among the peer
reviewers’ scores and explain the rankings; however, OJJDP staff said reviewers are not
obligated to adjust their scores to align with those of the other panelists.
        
       12
          Potential peer reviewers submit their résumés prior to being selected.
              13
           Variance refers to the deviation between peer reviewers’ scores for a particular
application. The variance guidelines are used to determine which scoring sections will be
discussed during consensus calls. For example, if the variance guideline is 20 percent, the
peer reviewers will discuss any of their scores that diverge by 20 percent or more. The
guidelines also include the score cutoff point for applications to be discussed. For the
FY 2009 FIRE solicitation, the score cutoff was 70.


                                                               8

                                                                 
Lockheed Martin facilitator and the OJJDP staff member responsible for the
peer review. After the scores were finalized, the panel’s scores were
averaged on a final score sheet and applicants were ranked from highest to
lowest scores for OJJDP review.

       Using the rankings, the OJJDP program office prepared a
recommendation memorandum for the OJJDP Acting Administrator’s
approval. The recommendation memorandum included background
information, peer review process information, a summary of the
recommended applications, and a list of all applications with a peer review
score of 70 or above. The OJJDP Acting Administrator recommended funding
for the three highest scoring applications, including NCCD. According to the
Acting Administrator, awards were made based strictly on the peer review
rankings and any deviation from this selection would have required a written
justification for a decision not to fund an application with a higher peer
review score. The Acting Assistant Attorney General for OJP approved
funding for the three top-scoring applications, totaling $1.1 million.

        We analyzed the peer review scores to determine if the scores were
accurately calculated and reported to the OJJDP Acting Administrator, but
did not re-score the content of the applications. We assessed both the
initial, pre-consensus call peer review scores and the final, post-consensus
call scores for accuracy by verifying the peer reviewer sub-scores, the
calculations for the weighted scores, and the averages of the reviewers’
scores for each application. We did not identify any errors in these
calculations. Exhibit 1 below depicts the final peer review scores, not
including seven applications with scores under the minimum threshold score
of 70.




                                   9

                                     
                    Exhibit 1: Final Peer Review Scores

                                                                      Peer
                         Applicant Name                              Review
                                                                     Scores
       National Council on Crime and Delinquency                      91.50
       Arizona State University                                       89.17
       Development Services Group, Inc. (II)*                         86.67
       Development Services Group, Inc.                               80.17
       Trustees of Indiana University                                 79.33
       Iowa Division of Criminal and Justice Planning
                                                                      77.50
       Agency
       University of Cincinnati                                       77.00
       The Partnership for Families and Children                      77.00
       Louisiana State University and A and M College                 75.50
       National Council of Juvenile and Family Court
                                                                      70.33
       Judges
      Source: The OJJDP peer review score sheets
      Note: Scores from the recommendation memo have been rounded to two decimal
      places. *Development Services Group, Inc. submitted two applications. We have
      used the numeral designation “(II)” to distinguish between the two applications.

       We also compared the peer reviewer final scores to the ranking list in
the recommendation memo signed by the Acting Administrator and found no
errors. Therefore, we did not identify errors that would have undermined
the final FIRE award outcome.

      Because the 2009 FIRE solicitation stated that the OJJDP may use
internal or external peer reviewers to review the applications, the OJJDP’s
use of external peer reviewers to score and rank the applications is
appropriate and reduced the risk of any potential claim of bias on the part of
the OJJDP. In addition, the OJJDP’s decision to fund only the highest-scoring
applications complied with the Associate Attorney General’s guidance at the
time on discretionary spending. This guidance directed that any
recommendations for awards to applicants other than those with the highest
scores from the peer reviewers required an adequate justification. In the
case of the 2009 FIRE awards, the recipients were the top three consecutive
scorers from the peer review. Therefore, after analyzing the peer review
and the scoring process, we found no evidence that the OJJDP had unfairly
or inappropriately awarded the 2009 FIRE grant to NCCD or had violated
applicable laws and regulations.



                                        10

                                           
Conflict of Interest Analysis

      To ascertain whether NCCD has any actual or potential conflicts of
interest that may adversely affect its performance under the award, we
reviewed NCCD’s application materials, analyzed both the original and
revised project methodologies, reviewed progress reports, and met with
OJJDP grant managers to discuss NCCD’s performance under the award. To
evaluate the relationship between the two organizations further, we
interviewed NCCD personnel conducting the evaluation along with
representatives from the Casey Foundation who are collaborating with NCCD
on the project. We also met with NCCD’s financial controller and reviewed
NCCD’s accounting records for the OJJDP grant as well as payments from the
Casey Foundation from FYs 2007 - 2011.

OJP Conflict of Interest Guidelines

      To identify conflict of interest policies applicable to grantees during the
grant award process and post-award performance periods, we met with the
OJJDP Acting Administrator and the OJP staff responsible for overseeing the
2009 FIRE award process. OJP officials indicated that they were not aware
of any conflict of interest policies or guidelines that would pertain specifically
to a grantee organization performing evaluations.14

       To identify any conflict of interest policies governing the award
selection process, we reviewed the Peer Review Procedure Manual,
instructions for the peer reviewers, and the solicitation itself. We found that
peer reviewer conflict of interest policies and procedures did exist regarding
reviewer eligibility and scoring to prevent bias against applications during
the scoring process. However, we did not find any guidelines regarding
conflicts of interest pertaining to the applicant organizations in these
documents.



                                                            
              14
             The 2009 OJP Financial Guide prohibits only individual officers or employees of an
award recipient from participating in any proceeding, application, determination, contract,
award, or other particular matter in which award funds are used where he or she has
knowledge that his or her immediate family, partners, or another organization with which
the officer or employee has a current or prospective employment relationship, has a
financial interest in the matter, or otherwise has a less than arm’s-length relationship in the
proceeding. OJP told us it provides conflict of interest and ethics policies and resources for
its staff, including: (1) providing employees with Standards of Ethical Conduct for Executive
Branch Employees upon entrance of duty and at periodic training sessions thereafter;
(2) requiring employees to complete annual financial disclosure forms; and (3) providing
OJP staff access to ethics officials within the Office of General Counsel who have the
responsibility to provide ethics information, guidance, and training.

                                                               11

                                                                  
      To assess post-award performance conflict of interest rules, we
reviewed the award special conditions, the OJP Grant Manager’s Manual, and
the OJP Financial Guide. We found that, as part of the award special
conditions, NCCD had agreed to refer to the DOJ OIG any credible evidence
that a principal, employee, agent, contractor, subgrantee, subcontractor, or
other person committed a criminal or civil violation of law pertaining to a
“fraud, conflict of interest, bribery, gratuity or similar misconduct involving
grant funds.” However, the special conditions do not define what would
constitute a conflict of interest for individuals not employed by the
government, nor do they discuss organizational conflicts of interest.15

       The Grant Manager’s Manual states that the grant manager should
contact the Office of the Chief Financial Officer (OCFO) monitoring division if
he or she “discovers any significant financial irregularities.” The manual also
states that a grant manager should contact the OIG if he or she suspects:
(1) misuse of funds, (2) program or financial non-compliance by a recipient
of a grant or cooperative agreement, or (3) “conflicts of interest.” However,
the Grant Manager’s Manual also does not define what would constitute a
conflict of interest.

     The 2009 OJP Financial Guide also provides guidance on the
appearance of a conflict of interest as it relates to individuals working for an
award recipient. The 2009 OJP Financial Guide states that in the use of
agency project funds, “the officials or employees” of both government and
nongovernment recipients and subrecipients shall “avoid any action, which
might result in, or create the appearance of:

                            Using his or her official position for private gain;
                            Giving preferential treatment to any person;
                            Losing complete independence or impartiality;
                            Making an official decision outside official channels; or
                            Affecting adversely the confidence of the public in the integrity of
                             the Government or the program.”

     We did not identify specific guidance in the 2009 OJP Financial Guide
on post-award conflict of interest matters pertaining to a grantee



                                                            
           Criminal and civil conflict of interest statutes prohibit federal employees from
              15

participating in an official capacity in any particular matter in which, to their knowledge,
they, or any person whose interests are imputed to him, have a financial interest if the
particular matter will have a direct and predictable effect on that interest. 18 U.S.C.
208(a), 5 U.S.C. app. 4 § 402, and 5. C.F.R, § 2635.402.


                                                               12

                                                                  
organization as an entity, as opposed to individuals within the organization.16
However, notwithstanding NCCD’s prior relationship with the Casey
Foundation, the OJJDP grant managers we interviewed told us that they did
not have any concerns about NCCD’s performance under the award.

       We also reviewed guidance from other grant-making agencies that
provide federal funding for research. In most instances these guidelines
address conflicts involving individuals working on grants, as opposed to
conflicts involving organizations.17 For example, the National Institutes of
Health (NIH) amended its financial conflict of interest regulations in 2011 to
provide a reasonable expectation that the design, conduct, and reporting of
research performed under NIH grants or cooperative agreements will be free
from bias resulting from individual financial conflicts of interest that could
directly and significantly affect the design, conduct, or reporting of the NIH-
funded research. Under the regulation, however, "a Financial Conflict of
Interest” exists when the organization reasonably determines that an
individual investigator’s significant financial interest is related to a NIH-
funded research project and could directly and significantly affect the design,
conduct or reporting of the NIH-funded research, as opposed to an interest
of the organization as a whole.18

       However, the National Institute of Justice (NIJ), which is the research,
development, and evaluation agency of the DOJ, requires applicants for its
Research, Evaluation and Development Grants Program to identify any
potential organizational financial conflicts of interest and the safeguards the
applicant has implemented to address those conflicts. If the applicant
believes that there are no potential organizational financial conflicts of
interest, the applicant must provide a brief narrative explanation of why it
                                                            
              16
           As a part of the special conditions, NCCD agreed to adhere to the edition of the
OJP Financial Guide then current, which at that time was the 2009 edition. OJP did revise
the Financial Guide in 2011, requiring grantee decisions related to federal funds be “free of
hidden personal or organizational conflicts of interest, both in advice and in appearance.”
Yet, this revision does not define organizational conflicts of interest and only provides
additional guidance on conflict of interest issues related to individual – not organizational –
actions, such as financial or familial interests in procurement and less than arm’s-length
transactions during post-award performance.
              17
           We also did not identify any conflict of interest standards adopted by national
social science academic or professional organizations that would govern the NCCD
evaluation.
              18
           42 CFR § 50.601 – § 50.603. NIH defines a significant financial interest as
$5,000 for an individual. We also note that the National Science Foundation (NSF) requires
grant-funded institutions with more than 50 employees to maintain a financial conflict of
interest policy that requires individuals to disclose significant financial interests exceeding
$10,000 that could be influenced by funded research.

                                                               13

                                                                  
believes that to be the case. Nevertheless, NIJ’s guidance does not further
define organizational financial conflicts of interest or describe other types of
organizational conflicts of interest. Additionally, while NIJ is an agency
within the DOJ, this guidance is written specifically for NIJ applicants.
Therefore, the only applicable criteria relevant to our audit is from the 2009
OJP Financial Guide, which addresses preferential treatment, the loss of
complete impartiality, and actions adversely affecting the confidence of the
public in the integrity of the program on the part of individuals.

Review of Individual Relationships

      In order to determine if the NCCD staff had any individual actual or
potential conflicts of interest as described in the 2009 OJP Financial Guide,
we reviewed employment histories and interviewed NCCD personnel
conducting the evaluation for evidence of past research for the Casey
Foundation and prior research performed on JDAI. We also interviewed
representatives from the Casey Foundation who are collaborating with NCCD
on the project.

              Prior Employment

       To determine if the NCCD staff involved in the JDAI evaluation might
have a conflict of interest affecting their performance under the award, we
reviewed the résumés that NCCD submitted with its application to the
OJJDP. Among the NCCD staff résumés submitted, we found no evidence
that any staff member assigned to the JDAI evaluation had been directly
employed by the Casey Foundation.19 However, the submitted résumés
disclosed that two employees assigned to the JDAI evaluation had worked on
research projects at NCCD funded by the Casey Foundation. One employee
had worked on two other Casey Foundation-funded NCCD projects since
2002, but these projects were unrelated to JDAI. The other employee
disclosed that the Casey Foundation had engaged this employee to assess
the effectiveness of JDAI. After interviewing this employee, we concluded
that this assessment was NCCD’s 1999 JDAI study, which evaluated the five
original JDAI sites. However, we found that NCCD’s 2009 project is
significantly broader in scope and differs substantially in design from its
original 1999 study.20 We also found that neither this employee nor any
                                                            
              19
           Although the complainant did not raise concerns about the NCCD personnel
assigned to the evaluation, we reviewed documentation for evidence of individual conflicts
of interest as outlined in the 2009 OJP Financial Guide.
              20
          For a further discussion of the 2009 project design, see Review for
Methodological Bias section, beginning on page 15 below.


                                                               14

                                                                  
family member had any direct financial interest in the Casey Foundation
resulting from the 1999 evaluation. Furthermore, we note that the OJJDP
sought applicants for the FIRE award that had a working relationship with
partner organizations. We found no evidence that NCCD’s performance on
the 2009 grant project was affected adversely by this prior relationship.

      We also interviewed the NCCD staff working on the JDAI evaluation to
determine if, at the time of our audit, the staff had any expectation of future
Casey Foundation employment or had performed work for the foundation
outside the projects performed through NCCD. No employee working on the
project indicated receiving any inducement of future employment at the
Casey Foundation should NCCD produce a favorable evaluation.

       We also found that one NCCD employee has transitioned to a
consultant position with NCCD.21 Our review of the consultant’s contract
with NCCD determined that the consultant will perform work on multiple
projects for NCCD and involvement in the JDAI evaluation is limited to 20
days of work. This former NCCD employee is now also employed at the
University of California at Berkeley and is conducting a project evaluating
JDAI and non-JDAI location outcomes, which is funded through a grant from
the Casey Foundation to the university. While the Casey Foundation is
funding this research, we concluded that the terms and conditions of this
project lie outside of the scope of this audit because this research began
after the 2009 FIRE grant award. We did not identify any other NCCD
employees assigned to the JDAI evaluation with previous or ongoing
employment with the Casey Foundation other than work involving the
foundation that they had performed as part of their NCCD duties. Under the
guidelines pertaining to individual conflicts of interest in the 2009 OJP
Financial Guide, we found no evidence of an actual conflict of interest or the
appearance thereof among any of the individuals assigned to the NCCD
evaluation that would adversely affect NCCD’s award performance.

Organizational Relationship Between NCCD and the Casey Foundation

      Although we found no guidelines that would directly apply to the
complainant’s concern regarding a potential bias deriving from the
organizational relationship between NCCD and the Casey Foundation, we
reviewed NCCD’s past research for the Casey Foundation, NCCD’s prior
research on JDAI, and the current evaluation design. We also interviewed
the NCCD personnel conducting the evaluation along with representatives
from the Casey Foundation.
                                                            
              21
                     NCCD notified the OJJDP grant manager about this transition.


                                                               15

                                                                  
              Prior JDAI Research

      During our review of past interactions between NCCD and the Casey
Foundation, we found that the Casey Foundation has funded NCCD research
and evaluations since at least 1999.22 This research has included
employment and workload studies on child welfare systems, studies of youth
violence, and forecasts of bed space needs for youth detained in the adult
criminal justice system.

       In addition to the original NCCD study in 1999 of the five initial JDAI
pilot sites, NCCD provided the Casey Foundation a JDAI handbook in 2003
and an update in 2004 to the data collected in the 1999 study. However, we
found that NCCD has not conducted any JDAI-specific research from FYs
2007 – 2011.

              Review for Methodological Bias

      To assess whether the prior work that NCCD has done on JDAI has
compromised the design of NCCD’s new JDAI research, we reviewed the new
project’s methodology as proposed in the 2009 FIRE application and in
subsequent revisions. We also interviewed the primary researchers
designing the methodology and reviewed the proposed survey instruments.

       The approach described in the 2009 FIRE application relied on NCCD
performing case study evaluations of 10 successful JDAI locations and was
similar to the 1999 JDAI evaluation of the five original JDAI sites. Based on
our analysis of the initial project methodology, we found that NCCD’s
approach raised a risk of preferentially selecting only the best performing
sites, thereby potentially skewing results to show JDAI effects that may not
be generally applicable. However, in its application materials, NCCD also
recognized the problem with only obtaining data from successful locations,
described this potential threat to the validity of its approach, and even
discussed the possibility of revising its methodology to include less
successful JDAI locations if requested by the OJJDP.

       We note that subsequent to its award, but prior to the start of our
audit, NCCD revised its methodology. The new methodology places
significant reliance on a self-reported site survey distributed to all of the
JDAI sites to examine a site’s fidelity to JDAI, which can be used to draw


                                                            
              22
          The Casey Foundation has provided funding for three projects unrelated to JDAI
within our audit scope including one study in 2007 and two studies in 2011.


                                                               16

                                                                  
associations with any measurable changes in outcome data.23 Although a
survey was a component of its original proposal, NCCD decided to place a
greater emphasis on the results of a more robust survey in its revised
methodology. The survey will allow a comprehensive assessment of sites’
adherence to the JDAI model in comparison to quantitative outcome data
gathered from federal and state databases, the Casey Foundation, and
directly from the sites in the sample.

       Under the revised methodology, NCCD selected 57 JDAI sites in 9
states for the evaluation. NCCD grouped the potential study sites for its
sample by state to ensure a geographically representative sample. Each
state had to be diverse in terms of size and socioeconomics and have a
proportion of youth represented in JDAI counties that was more than 20
percent of the total state youth population. Additionally, study sites within
the sampled states must be 3 to 8 years old, actively pursuing JDAI efforts,
and have a non-white youth population of 15 percent or more. In addition,
NCCD planned to evaluate 19 JDAI sites in 3 states that had been shown in
previous evaluations to be successful and also exhibited the strongest
fidelity to the model. NCCD will compare the results of the JDAI fidelity
survey of the sites with quantitative juvenile justice outcome data for each
site to identify what combination of site characteristics is most associated
with compliance with the JJDP Act core requirements.
        
       Importantly, NCCD researchers told us they recognize that the
evaluation cannot prove JDAI actually caused the positive outcomes.
Rather, the product of the research may provide associations or correlations
between implementing JDAI elements and desired outcomes, and it will
include data from sites that may have poor outcomes despite JDAI
implementation. NCCD researchers told us that they may still visit three or
more locations to obtain anecdotal information that may add descriptive
information to the findings of the fidelity tool.24

      By examining data from many JDAI sites with the revised
methodology, NCCD seeks to identify those aspects of JDAI most associated
with better outcomes and thus identify the best practices associated with
JDAI for localities seeking compliance with the JJDP Act requirements.


                                                            
              23
           Outcome data is quantitative information about decision points in the juvenile
justice system, such as number arrested, admitted to detention, or sent to an adult system.
Although NCCD is distributing the survey to all JDAI sites, outcome data collection will be
limited to approximately two-thirds of the sites.
         
        24
           NCCD has not yet completed its report, so we were unable to state whether its
final product was objective in assessing the Casey Foundation’s JDAI program. 

                                                               17

                                                                  
              Katie Nichols Award

      In its complaint letter, CVU also points to NCCD’s presentation of the
Katie Nichols Award to the Casey Foundation’s president in 2006 as further
evidence of a conflict of interest. To evaluate the conditions of this award,
we spoke with NCCD staff about the Katie Nichols Award and reviewed
documents detailing the criteria for NCCD awards and the selection of the
Casey Foundation as a recipient.

       NCCD presents the Katie Nichols Award to recognize leaders in the
private or nonprofit sector that show “a significant and sustained
commitment to community service consistent with NCCD's values.”25 The
award is one of several Prevention for a Safer Society Awards that NCCD
presents each year to political officials, judicial figures, academics, and other
institutions and entities working in the field of justice, based on NCCD staff
nominations. According to the award letter, NCCD presented the Katie
Nichols Award in 2006 to the Casey Foundation for its work “to advance the
goals of enlightened reform of juvenile justice and child welfare.”

      Importantly, NCCD staff stated that the Katie Nichols Award did not
have a financial value and instead described the award as a form of non-
monetary recognition of achievements in the field of juvenile justice.
NCCD’s financial controller further noted that it would be unusual for NCCD
to transfer money to private foundations. Consistent with this statement,
our review did not identify any payments regarding the Katie Nichols award
or any other payments from NCCD to the Casey Foundation that were
relevant to our audit.

              Financial Relationship Between the NCCD and the Casey Foundation

       The complainant also asserted that NCCD listed the Casey Foundation
on its website as one of its supporters, that the Casey Foundation provided a
significant amount of funding to NCCD, and that the financial relationship
between the two organizations undermines NCCD’s ability to perform a fair
evaluation of JDAI through a federal grant. We therefore met with NCCD’s
financial controller and analyzed the financial relationship between the two
organizations from FYs 2007 - 2011.26

                                                            
              25
           NCCD staff told us that Katie Nichols was a former NCCD board member and the
award was named in her honor to recognize “significant, sustained, and outstanding
contributions to justice reform through community service.”
                                
       26
           NCCD’s fiscal year ends on June 30.


                                                               18

                                                                  
      Our audit included a review of the general ledger for the grant and
accounting records showing a list of payments that the Casey Foundation
made to NCCD. Our review of these documents showed that the Annie E.
Casey Foundation spent $139,500 from FYs 2007 – 2011 to fund NCCD
research, but that all of this research focused on topics other than JDAI, as
shown in Exhibit 2.

                       Exhibit 2: Casey Foundation Funded NCCD Research,

                                         FYs 2007 – 2011 


             Date
                                                    Project          Description         Amount
           Received
                                                               Study of media-reported
                                          Youth Violence-
                                                                 increases in juvenile
          1/29/2007                       A Tale of Three                                $75,000
                                                                  crime versus actual
                                               Cities
                                                                 juvenile crime rates
                                          DC Department              Study of youth
                                             of Youth               rehabilitation in
          1/28/2011                                                                      $42,000
                                           Rehabilitation          Washington, D.C.
                                             Services
                                                                 Study of need for
                                                  Baltimore
          1/28/2011                                            additional bed space in   $22,500
                                                  Detention
                                                                   Baltimore, MD
                                                       Total                             $139,500
        Source: NCCD records

       To determine the extent of the financial relationship between the two
organizations, we obtained NCCD’s total budget figures, including NCCD’s
total revenue from grants and contracts from FYs 2007 - 2011. We also
requested from NCCD a list of any funding from the Annie E. Casey
Foundation or any other Casey institution from FYs 2007 - 2011.27


                                                            
              27
           There are several separate institutions with the Casey name but with different
scopes of work, including: (1) the Annie E. Casey Foundation, which also includes Casey
Family Services, a direct services agency; (2) Casey Family Programs, which focuses on
foster care related issues; (3) the Marguerite Casey Foundation, which works with low
income families; and (4) the Jim Casey Youth Opportunities Initiative, which focuses on
helping youth in foster care make transitions to adulthood. Although we reviewed NCCD’s
records for funding from any Casey institution, an official from the Annie E. Casey
Foundation stated that all the Casey institutions are separate and independent non-profit
organizations, with their own boards of directors, executive directors, and bylaws.
Therefore, in our analysis, we separate funding from the Annie E. Casey Foundation from
other institutions affiliated with the “Casey” name.


                                                               19

                                                                  
       From FYs 2007 - 2011, NCCD’s total revenue was approximately
$43 million. Of this total, approximately $12 million consisted of revenue
from fundraising, memberships, publications, dividends, and other sources;
the remainder derived from grants and contracts. Of the approximately $31
million in NCCD revenue from grants and contracts during this period,
funding from the Annie E. Casey Foundation constituted $139,500 and
funding from all other Casey designated institutions constituted nearly an
additional $1.2 million. As shown in Exhibit 3, when compared with NCCD’s
total revenue, the funding from just the Annie E. Casey Foundation
accounted for less than one half of 1 percent of NCCD’s total revenue. All
other Casey institutions’ contributions accounted for about 3 percent of the
approximately $43 million.28




                                                            
              28
         As previously discussed in this report, our analysis of the financial relationship
between NCCD and the Casey Foundation included a review of accounting records for any
payments that NCCD made to the Casey Foundation. We did not identify any such
payments relevant to this audit.   

                                                               20

                                                                  
                 Exhibit 3: NCCD Revenue FYs 2007 – 2011




                                                    Grant or
                                                    Contract
                                                  Revenue from
                                                   non-Casey
                                                    Sources
                                                  $29,844,220




                           Other Revenue
                            $11,852,572




                             Separate Casey               Annie E Casey
                                Insitution                 Foundation
                              Contributions                  Funding
                               $1,177,258                   $139,500


                        NCCD Total Revenue: $ 43,013,550

Source: NCCD accounting and budget information 

Note: The sum of “Separate Casey Institution Contributions” includes grant and contract 

revenue from any Casey institution we identified in NCCD’s records, excluding the Annie E.

Casey Foundation. “Other Revenue” includes revenue from fundraising, memberships, 

publications, and contributions to NCCD initiatives.





                                          21

                                             
        Although it appears NCCD’s operations are not dependent on the
Casey Foundation for funding, OJP has yet to provide guidance establishing a
financial threshold that would aid decision-makers in identifying when a
prospective grant recipient may have a conflict of interest because of a
financial relationship with an entity being assessed or an entity that may
benefit from the grantee’s performance under the grant. Accordingly, we
had no standard to apply to determine whether a conflict existed with
respect to the awarding of a grant to NCCD to assess the performance of a
program developed by a minor funding source of the grantee.

       We did not find evidence that the prior relationship between NCCD and
the Casey Foundation biased NCCD’s assessment of the JDAI program in
favor of its developer, the Casey Foundation. However, to help address
conflict of interest risks, OJP must establish guidelines that will address
questions such as whether the level of support and interaction between the
Casey Foundation and NCCD is significant enough to constitute a conflict of
interest.

Appearance of Conflict of Interest Analysis

      The complainant also contended that NCCD is at risk of an appearance
of a conflict of interest and suggested that the OJJDP’s award-making
process is insufficient. Although the prior relationship between NCCD and
the Casey Foundation could constitute a conflict of interest, as noted above,
we could not identify any guidance that would prevent research
organizations from conducting evaluations involving third parties with a prior
research relationship or history of funding. Rather, the OJP Financial Guide
only proscribes actions of a non-government employee that might result in
or create the appearance of giving preferential treatment to a person, losing
complete impartiality, or adversely affecting the confidence of the public in
the integrity of the program. Ultimately, any conflict of interest
determination cannot be definitive until standards are in place and a process
exists whereby the granting agency can assess any ramifications of prior
organizational relationships on the goals, design, and outcomes of the
funded research. We believe a set of clear criteria by which to evaluate
grant applicants for organizational conflicts of interest would improve the
OJJDP’s ability to make awards transparently.

       While NCCD did make known its prior history with the Casey
Foundation in its application, the 2009 FIRE solicitation and OJP Financial
Guide did not require applicants to disclose prior work history or financial
relationships with research partners or entities subject to an evaluation.
Although not currently specified in the Financial Guide, we believe that OJP
should strengthen its ability to assess an applicant’s suitability for funding

                                     22

                                        
and detect false or misleading information by requiring applicants to disclose
prior work history or financial relationships with research partners or entities
subject to an evaluation.29

       Furthermore, despite the fact that OJP is charged with ensuring that
applicants possess the fiscal integrity to administer federal funds adequately
and appropriately, OJP lacks a thorough process to screen research grant
applicants for conflicts of interest, prior to making awards. Specifically, we
found OJP does not have a process that allows it to collect and assess
information from applicants that could indicate an actual or potential conflict
of interest based on prior work history or financial relationships with
research partners or entities subject to an evaluation.

       Given the factors above, we conclude that the current award-making
process for OJJDP research grants could be improved by requiring disclosure
of prior work history and financial relationships. This would allow the OJJDP
to assess the risk of an actual or potential conflict of interest prior to making
its award decision, and take necessary steps to address potential concerns.
In addition, such a process would increase the transparency of the award-
making process, protect the integrity of post-award performance, and
further the public’s confidence in the FIRE program.

       Therefore, we recommend that OJP (1) ensure that its program offices
awarding research and evaluation grants develop and include written
language for research and evaluation grant solicitations to require that
applicants describe their relationship with the research subject or
collaborating third parties, including their prior research history and financial
relationship; and (2) develop procedures for its program offices to use to
identify, evaluate, and perform a risk assessment of the evaluator-research
subject relationship in order to assess research and evaluation grant
applications for actual and potential conflicts of interest.




                                                            
              29
          A revision to the OJP Financial Guide in 2011 states that grant applicants must
represent their eligibility for funding accurately and cannot provide false or misleading
information in their application. While such language reinforces the need for a thorough and
accurate applicant disclosure and screening process, it does not provide clear and specific
disclosure requirements and conflict of interest standards.

                                                               23

                                                                  
Conclusion

       Our analysis of the solicitation, peer review, and scoring process found
no evidence that the OJJDP unfairly or inappropriately awarded the 2009
FIRE grant to NCCD, or that it violated applicable laws and regulations. The
OJJDP solicitation was widely distributed and did not include any specific
language to target a particular group. We also found the external panel of
peer reviewers who scored NCCD’s application completed required conflict of
interest forms, and we did not find any evidence of a peer reviewer conflict
of interest that would negatively affect the scoring process. Our review of
the scoring calculations found that NCCD had the highest score of all the
2009 FIRE applicants and was also the first recipient listed in the
recommendation memo for funding through the grant. Thus, we found that
the OJJDP complied with directives from the Associate Attorney General at
the time of the award decisions.

       While we found that NCCD personnel had worked on past research
projects with funding from the Casey Foundation, which NCCD disclosed in
its grant application, we found no evidence that NCCD’s performance on the
2009 grant project was affected adversely by any individual NCCD employee
involvement with the Casey Foundation. We also reviewed the relationship
between the two organizations and found that OJP does not have established
policies, procedures, or definitions to identify and address organizational
conflicts of interest, which limited our ability to determine whether an actual
conflict existed with regard to NCCD’s performance on the grant. We found
that while NCCD did perform a study of JDAI in 1999, the OJJDP sought
applicants for the FIRE award that had a working relationship with partner
organizations, and NCCD’s 2009 project differed substantially in both design
and scope from its original 1999 study. Furthermore, less than one half of 1
percent of NCCD’s total revenue from FYs 2007 - 2011 derived from the
Annie E. Casey Foundation specifically, and just 3 percent of NCCD’s total
revenue during that period derived from all Casey institutions combined. We
also found no evidence that the Katie Nichols honorary award, which NCCD
presented to the Casey Foundation in 2006, had any monetary value.

      However, we conclude the award process for research and evaluation
grants could be improved by including requirements for applicants to
disclose the extent and nature of prior research and financial relationships
with collaborating third parties or potential research subjects. Such
disclosures would permit the OJJDP and other program offices within OJP to
assess conflict of interest risks prior to making awards, increase
transparency, and enhance the public’s confidence in the FIRE program.



                                    24

                                       
Recommendations

     We recommend that OJP:

  1. Ensure that its program offices awarding research and evaluation
     grants develop and include written language for research and
     evaluation grant solicitations to require that applicants describe their
     relationship with the research subject or collaborating third parties,
     including their prior research history and financial relationship.

  2. Develop procedures for its program offices to use to identify, evaluate,
     and perform a risk assessment of the evaluator-research subject
     relationship in order to assess research and evaluation grant
     applications for actual and potential conflicts of interest.




                                    25

                                       
               STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to prevent or detect in
a timely manner: (1) impairments to the effectiveness and efficiency of
operations, (2) misstatements in financial or performance information, or
(3) violations of laws and regulations. Our evaluation of the internal controls
of the Office of Justice Programs (OJP) and the Office of Juvenile Justice and
Delinquency Prevention (OJJDP) was not made for the purpose of providing
assurance on their internal control structures as a whole. OJP and the OJJDP
management are responsible for the establishment and maintenance of
internal controls.

       Based on the audit work performed, we did not identify any
deficiencies in OJP or the OJJDP’s internal controls that were significant
within the context of the audit objectives that we believe would affect their
abilities to effectively and efficiently operate, to correctly state financial and
performance information, or to ensure compliance with laws, regulations,
and other applicable requirements. However, as noted in our report, the
OJJDP does not require research and evaluation grant applicants to disclose
their prior research history and financial relationship with collaborating
partners, and consequently the OJJDP cannot effectively identify conflicts of
interest among its research and evaluation grant applicants. The
Appearance of a Conflict of Interest section of this report contains the
specific details regarding this management improvement issue and our
recommendations for corrective action.

      Because we are not expressing an opinion on the internal control
structure of either OJP or the OJJDP as a whole, this statement is intended
solely for the information and use of the auditee. This restriction is not
intended to limit the distribution of this report, which is a matter of public
record.




                                      26

                                         
                  STATEMENT ON COMPLIANCE

                 WITH LAWS AND REGULATIONS 

 
      As required by the Government Auditing Standards, we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that the
Office of Justice Programs’ (OJP) management complied with federal laws
and regulations for which noncompliance, in our judgment, could have a
material effect on the results of our audit. OJP’s management is responsible
for ensuring compliance with federal laws and regulations applicable to the
Department of Justice. In planning our audit, we identified the following
laws and regulations that concerned the operations of the auditee and that
were significant within the context of the audit objectives:

     42 U.S.C. § 5601 et seq.(2002);
     2 C.F.R. Part 215;
     2 C.F.R. Part 230.

      Our audit included examining, on a test basis, OJP’s compliance with
the aforementioned laws and regulations, and whether non-compliance could
have a material effect on OJP’s operations. We did so by interviewing
auditee personnel, assessing internal control procedures, and examining
procedural practices for scoring applications and awarding grants.

     Nothing came to our attention that caused us to believe OJP was not in
compliance with the aforementioned laws and regulations.




                                   27

                                      
                                                              APPENDIX I
 
           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

       We audited the Office of Justice Programs (OJP) Office of Juvenile
Justice and Delinquency Prevention (OJJDP) research award made to the
National Council on Crime and Delinquency (NCCD) to evaluate the Juvenile
Delinquency Alternatives Initiative (JDAI) program developed by the Annie
E. Casey Foundation (Casey Foundation). The objectives of this audit were
to: (1) determine whether the award was made fairly, appropriately, and in
accordance with applicable laws, and regulations; and (2) ascertain whether
NCCD has any actual or potential conflicts of interest that may adversely
affect its performance under the award.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Our audit focused specifically on the FY 2009 FIRE Program
solicitation, peer review, award process, and the performance of NCCD
under this grant award. The scope of our review encompassed FYs 2007 –
2011.

       We conducted audit work at OJP offices in Washington, D.C.; NCCD
offices in Oakland, California; the Casey Foundation headquarters in
Baltimore, Maryland; and JDAI sites located in Santa Cruz and San
Francisco, California. We also discussed the complaint with Crime Victims
United and other individuals they referred to us.

       To determine whether the OJJDP made the 2009 grant award to NCCD
fairly, appropriately, and in accordance with applicable laws and regulations,
we reviewed relevant portions of the OJP grant manager’s manual, the peer
review process manual, the instructions for the peer reviewers, as well as
scoring materials. In conducting our audit, we examined the Juvenile Justice
and Delinquency Prevention Act and reviewed the details of the 2009 FIRE


                                    28

                                       
solicitation as well as the OJJDP’s process for developing its solicitations. We
also interviewed OJP personnel including the OJJDP Acting Administrator, the
OJJDP Deputy Administrator for Programs, grant managers assigned to
manage the NCCD grant, the disproportionate minority contact coordinator,
and other staff who oversaw the 2009 FIRE solicitation, peer review, and
award-making processes.

       To analyze the peer review scoring and ranking process, we examined
the résumés and conflict of interest forms of the peer reviewers who scored
the NCCD application to identify any ties to either NCCD or the Casey
Foundation. We also reviewed the score sheets for each of the 2009 FIRE
solicitation applicants. Although we did not re-score the applications based
on the applicants’ merits, we reviewed the application score sheets for
accuracy by verifying that the peer review scores were summed and
averaged correctly, and we compared these rankings to the scores on the
recommendation memo signed by the Acting Administrator of the OJJDP and
the Acting Assistant Attorney General. We determined that the three funded
grantees were the top-scoring applicants for this solicitation.

       To assess whether NCCD had any actual or potential conflicts that
would negatively affect its performance under the award, we reviewed the
FY 2009 FIRE solicitation, the award special conditions, the OJP Grant
Manager’s Manual, and the OJP Financial Guide for guidelines on what
factors or circumstances constitute a conflict of interest. As noted in our
report, the OJJDP does not require research and evaluation grant applicants
to disclose their prior research history and financial relationship with
collaborating partners, and consequently the OJJDP cannot effectively
identify conflicts of interest among its research and evaluation grant
applicants.

       We assessed the extent of the relationship between NCCD and the
Casey Foundation by interviewing the NCCD financial controller, staff
assigned to the JDAI evaluation, and the principal investigator of the
evaluation who now works at the University of California at Berkeley and
serves as a consultant to NCCD. We also interviewed the Director of the
Juvenile Justice Strategy Group and a Senior Associate at the Casey
Foundation, who are collaborating with NCCD on the JDAI evaluation.
Additionally, we spoke with two other consultants from the Casey Foundation
about their collaboration with NCCD. To learn how JDAI is implemented, we
visited the JDAI sites in San Francisco and Santa Cruz, California, to
interview the JDAI coordinators and obtain background information on the
framework. Our audit also included reviewing the past work history of the
NCCD personnel working on the JDAI evaluation for evidence of ties with the
Casey Foundation outside the scope of their work at NCCD.

                                    29

                                       
      One of the complainant’s concerns was that NCCD had listed the Casey
Foundation as a supporter and given its president an award in 2006. To
evaluate the financial relationship between NCCD and the Casey Foundation,
we reviewed NCCD’s records for FYs 2007 – 2011 to identify payments from
any entities affiliated with the Casey Foundation, including, but not limited to
the Annie E. Casey Foundation and compared the Casey Foundation’s
funding to NCCD’s total revenue. We also reviewed records pertaining to the
Katie Nichols Award – which NCCD presented to the Casey Foundation in
2006 – to determine whether the award was financial in nature.

       Additionally, we reviewed NCCD’s prior research regarding JDAI
including NCCD’s original study of the JDAI pilot sites. We compared the
design of the original pilot study with the design of the JDAI evaluation
under this audit. We also examined NCCD’s research methodology outlined
in its grant application materials and compared it with the revised
methodology NCCD developed after receipt of the award.




                                    30

                                       
                                                                                             APPENDIX II

                CRIME VICTIMS UNITED COMPLAINT LETTER

 



    February 21, 2011
    Cynthia A. Schnedar, Acting Inspector General
    U.S. Department of Justice
    950 Pennsylvania Ave.
    Washington, D.C. 20530-0001
                                               RE: Contract policies, Office of Juvenile
                                               Juvenile and Delinquency Prevention

    Dear Ms. Schnedar,

    Please consider this to be a formal request to review the appropriateness and adherence to
    policy of a contract let by the OJJDP to the National Council on Crime and Delinquency to do
    a multi-year review of the Juvenile Detention Alternative Initiative, which is the creation of the
    Annie E. Casey Foundation. The JDAI is also the most heavily marketed program in juvenile
    justice. The results of the review will have far-reaching implications for juvenile justice. In a
    letter to Senator Wyden, dated August 5, 2010, Jeff Slowikowski, Acting Administrator of the
    OJJDP, stated:
        "OJJDP is currently funding a multi-site evaluation of the Juvenile Detention
        Alternative (JDAI) in 10 sites, being conducted by the National Council on
        Crime and Delinquency."

    The reason for our request is that the National Council on Crime and Delinquency lists the Annie
    E. Casey Foundation as one of their supporters. In fact the following was found on the NCCD
    search engine:

    The Annie E. Casey Foundation, the Jessie Ball DuPont Fund, and the Cowles Charitable Trust,
    among others, loyally support NCCD’s publications and advocacy

    Further, in 2006, the NCCD honored the Annie E. Casey Foundation and its president
    with their Katie Nichols Award, which is given:

    "To a leader in the private or nonprofit sector who shows a significant and sustained
    commitment to community service consistent with NCCD's values." (emphasis added)

    In its media advisory for the awards ceremony, the NCCD further lionized the Casey
    Foundation:

          "To promote a balanced criminal justice system through public awareness and legislative action"



                                                        31

                                                           
            "The Annie E. Casey Foundation has pushed for bold and extraordinary reforms of the
    juvenile justice and foster care systems. They have shown intense commitment, at time (sic) acting
    almost single-handedly to change the face of those fields.

    While the NCCD has every right to advocate its positions and endorse whatever programs or
    foundations they choose, it doesn't have the right to so with federal funds which have been
    designated for "evaluation."

    We believe that Mr. Slowikowski either knew or should have known that the NCCD was not an
    appropriate agency to review the effectiveness of the Annie E. Casey's JDAI program.

    At his address to the Vera Institute in 2010, Attorney General Holder made a clear declaration
    that he endorsed policies based on best evidence. We believe that even the most minimal
    definition of "best evidence," would not include an evaluation of a program by an agency which
    lists that program's sponsor as one who provides loyal support. At the very least, this shows a
    certain sloppiness and lack of vetting in the contract process. At another level, however, it
    shows a lack of institutional integrity.

    We sent a letter to Mr. Slowikowski in mid-January expressing our concerns (see attachment),
    and an e-mail to the "evaluator" at the NCCD at the same time. To date, we have not received
    further communication from Mr. Slowikowski, or the NCCD evaluator.

    We appreciate your attention to this matter.

    Sincerely,




    Ken Chapman, Juvenile Justice Policy Advisor
    Crime Victims United

    cc. 	 Senator Ron Wyden
         911 N.E. 11th Ave, Suite 630
         Portland, Or 97232

        Congressman Greg Walden 

        1051 Bond St., Suite 400 

        Bend, Or. 97701 





                                                    32

                                                       
 




    January 19, 2011

    Jeff Slowikowski
    Acting Administrator
    Office of Juvenile Justice and Delinquency Prevention
    Department of Justice
    Washington, D.C. 20531


    Dear Mr. Slowikowski,

    Your letter to Senator Wyden about the review of our reports on the effects of the Juvenile
    Detention Alternatives Initiative (JDAI) in Multnomah County, Oregon, was received by us in
    late October. We thank you for your response and the information contained in it. Given some
    of the information in the letter, especially the statement that our 4 reports about JDAI would be
    evaluated, we have waited to see whether we would receive any further communication. To
    date, we have not.

    We do have several questions about the process of evaluating both JDAI and our reports. Your
    letter states that JDAI will be evaluated by the National Council on Crime and Delinquency.
    Even a cursory examination of the NCCD website, however, shows that it is an advocacy group,
    not a research group. Under publications, the NCCD's president, Barry Krisberg, is often cited
    as author or coauthor. In one brief summary of an article entitled "Hate the Player, Hate the
    Game," Dr. Krisberg article is summarized by the following:

       "This article spells out the continuing 'war against the young' and the increased punitiveness and
        criminalization of youth behavior."

    This phrase is consistent with the philosophy of the Casey Foundation, the prime mover behind
    JDAI. We have absolutely no problem with Dr. Krisberg expressing his philosophy on his
    website. We do have a problem with that organization being contracted to actually "review" the
    effects of JDAI in ten different cities.

    Another article on the NCCD website is "Educate or Incarcerate?" which appears to offer yet
    another false choice, a tactic often used by the anti-incarceration foundations. Once again, the
    article represents a viewpoint the author has a right to express. It is, however, hardly reassuring,
    as with Dr. Krisberg's articles, of the possibilities for a candid review of a program which
    appears to fit the de facto philosophy of NCCD.

          "To promote a balanced criminal justice system through public awareness and legislative action"



                                                        33

                                                           
 

    Making the bias even more apparent is the statement at the bottom of the NCCD website:

    The Annie E. Casey Foundation, the Jessie Ball DuPont Fund, and the Cowles Charitable Trust,
    among others, loyally support NCCD’s publications and advocacy

    In reality a friend of the Annie E. Casey Foundation, and one devoted to advocacy, rather than
    research, is being given the task of evaluating the Casey Foundation's JDAI program.

    Another factor regarding JDAI which makes an evaluation difficult is that its participants tend to
    be treated to paid travel to JDAI events out of their home state. This is an unusual occurrence for
    most local government employees. The head of a small department in our state said when asked
    about the attraction of JDAI stated that "Casey [foundation] is like the guy you dated in high
    school because he had a great car." These sorts of financial inducements make a candid
    assessment of JDAI difficult if only JDAI counties, participants, and supporters are questioned.

    We have heard from some who went to the recent JDAI conference that the general impression
    given was that the OJJDP had already endorsed JDAI, at least unofficially. Please give some
    clarification on that issue. Perhaps this report is just a rumor, but if true it would certainly call
    into question the integrity of the current evaluation.

    We are also concerned that we have received no communication about the Crime Victims United
    reports from your office, despite a comment in your letter that they will be "reviewed."

    Our most general concern, however, is the echo chamber within the leadership of juvenile
    justice, and especially the well-funded foundations, which skews the discussion toward only one
    viewpoint – an antagonism toward the use of incarceration either to protect or to provide an
    incentive for the youth to cooperate with court-ordered mandates. In this age of evidence-based
    practices, it seems ironic that evidence for only one viewpoint is being substantively considered.

    While our reports are hardly the definitive word on JDAI, they are the only reports which give
    the effects of JDAI from one county in relation to the rest of the same state which does not
    embrace JDAI.

    Crime Victims United does not believe that incarceration is the answer. But neither do we
    believe that there is any one single answer to juvenile delinquency. We support research-based
    treatment, however juveniles in trouble with the law have little incentive to accept such
    treatment without credible and consistent enforcement of their court-ordered mandates.

    We hope that your office will take a serious look at who is evaluating JDAI, and how it is being
    done. As currently proposed, that evaluation is something like getting a recommendation from
                                                   34

                                                      
 

    a family member, rather than a candid and dispassionate review of policies, procedures and
    results.

    As an example of why we are concerned about the drive to implement JDAI nationwide, we have
    included a chart of robbery and homicide referrals from Multnomah County over the past 10
    years, as compared to the county’s share of state population. Multnomah County has been
    implementing JDAI over the past 15 years.


    Sincerely,




    Steve Doell, President
    Crime Victims United




    Ken Chapman, Juvenile Justice Policy Advisor
    Crime Victims United

    cc. Senator Ron Wyden
    attachment




                                                35

                                                   
                                                                              APPENDIX III

                      OJP RESPONSE TO THE DRAFT REPORT
 
                                                      U.S. Department of Justice

                                                      Office of Justice Programs




                                                     Washington, D.C. 20531




    September 18, 2012


    MEMORANDUM TO:               Michael E. Horowitz
                                 Inspector General
                                 United States Department of Justice

    THROUGH:                     Raymond J. Beaudet
                                 Assistant Inspector General for Audit
                                 Office of the Inspector General
                                 United States Department of Justice


    FROM:         	              Mary Lou Leary
                                 Acting Assistant Attorney General

    SUBJECT: 	                   Response to the Office of the Inspector General’s Draft Audit
                                 Report, The Office of Juvenile Justice and Delinquency
                                 Prevention’s Research Award to the National Council on Crime
                                 and Delinquency

    This memorandum provides a response to the Office of the Inspector General’s (OIG’s)
    September 7, 2012 draft audit report, entitled The Office of Juvenile Justice and Delinquency
    Prevention’s Research Award to the National Council on Crime and Delinquency. The Office of
    Justice Programs (OJP) appreciates the opportunity to review and comment on the draft report.
    Overall, the Office of Justice Programs (OJP) agrees with the conclusions and the
    recommendations detailed in the draft audit report.

    As detailed in the draft audit report, the OIG found no evidence that OJP’s Office of Juvenile
    Justice and Delinquency Prevention (OJJDP) inappropriately awarded the 2009 research grant to

                                               36

                                                  
 the National Council on Crime and Delinquency (NCCD). NCCD’s application had the highest
peer review score, and was selected in full compliance with award selection guidance issued by
the U.S. Department of Justice (DOJ), Office of the Associate Attorney General to DOJ grant-
making components on May 28, 2008. This guidance required that, beginning in fiscal year (FY)
2008, documentation must be maintained to support all discretionary funding recommendations
and decisions, and must clearly explain the choices made, the reasons for the choices, and the
policy consideration on which the decisions were based. Since that time, the OJP’s bureaus and
program offices have maintained records supporting their selection decision.

NCCD disclosed in its application that some of its personnel had worked on past research
projects with funding from the Casey Foundation. OJJDP determined, in the course of the
selection process, that this past relationship was of a de minimis nature and did not pose an
actual or potential conflict of interest that would adversely affect NCCD’s performance under the
award. Indeed, NCCD’s prior experience in working on research related to the Casey
Foundation’s Juvenile Detention Alternatives Initiative (JDAI) was identified as a strength in the
peer review process. In addition to peer review scores, OJJDP’s research solicitations stated that
all research award recommendations and decisions were based on:
(1) appropriateness and strength of research design; (2) planned dissemination of findings; and
(3) potential impact on the field. As scientific and financial independence is a significant
contributor to the strength of a project’s research design, NCCD’s independence was taken into
consideration in the final award decision.

The draft audit report contains two recommendations and no questioned costs directed to OJP.
For ease of review, these recommendations are restated in bold and are followed by OJP’s
response.

1.	    We recommend that OJP ensure that its program offices awarding research and
       evaluation grants develop and include written language for research and evaluation
       grant solicitations to require that applicants describe their relationship with the
       research subject or collaborating third parties, including their prior research
       history and financial relationship.

       The Office of Justice Programs agrees with the recommendation. Beginning with
       FY 2013 solicitations, OJP will work with the bureaus/program offices awarding research
       and evaluation grants to develop and include language for research and evaluation grant
       solicitations to require that applicants describe their relationship with the research subject
       or collaborating third parties, including their prior research history and financial
       relationship.

2.	    We recommend that OJP develop procedures for its program offices to use to
       identify, evaluate, and perform a risk assessment of the evaluator-research subject
       relationship in order to assess research and evaluation grant applications for actual
       and potential conflicts of interest.

       The Office of Justice Programs agrees with the recommendation. Beginning in



                                              37

                                                 
           FY 2013, OJP will work with the bureaus/program offices awarding research and
           evaluation grants to develop procedures to identify and assess research and evaluation
           grant applications for actual and potential conflicts of interest of the evaluator-research
           subject relationship.

    Thank you for your continued support and assistance. If you have any questions regarding this
    response, please contact Maureen A. Henneberg, Director, Office of Audit, Assessment, and
    Management, on (202) 616-3282.

    cc:    James H. Burch, II
           Deputy Assistant Attorney General 

             for Operations and Management 


           Melodee Hanes 

           Acting Administrator 

           Office of Juvenile Justice and Delinquency Prevention


           Denise O’Donnell         

           Director

           Bureau of Justice Assistance 


           James Lynch
           Director
           Bureau of Justice Statistics

           John Laub          

           Director

           National Institute of Justice


           Joye Frost
           Acting Director
           Office for Victims of Crime

           Linda M. Baldwin
           Director
           Office of Sex Offender Sentencing, Monitoring, Apprehending,
              Registering, and Tracking

           Leigh Benda
           Chief Financial Officer

           Maureen A. Henneberg
           Director
           Office of Audit, Assessment, and Management




                                                  38

                                                     
 
    cc: 	   Jeffery A. Haley
            Deputy Director, Audit and Review Division
            Office of Audit, Assessment, and Management

            Louise M. Duhamel, Ph.D.
            Acting Assistant Director, Audit Liaison Group
            Justice Management Division

            Anna Martinez
            Senior Advisor to the Associate Attorney General
            Office of the Associate Attorney General

            OJP Executive Secretariat 

            Control Number 20121492 





                                                39

                                                   
                                                            APPENDIX IV

  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to OJP. OJP’s response is
incorporated in Appendix III of this final report. The following provides the
summary of actions necessary to close each of the recommendations in the
report.

  1. Resolved. OJP concurred with our recommendation to ensure that its
     program offices awarding research and evaluation grants develop and
     include written language for research and evaluation grant solicitations
     to require that applicants describe their relationship with the research
     subject of collaborating third parties, including their prior research
     history and financial relationship. This recommendation can be closed
     when OJP provides us with evidence that it has included language in
     its research and evaluation grant solicitations to require that applicants
     describe their relationship with the research subject or collaborating
     third parties, including their prior research history and financial
     relationship.

  2. Resolved. OJP concurred with our recommendation to develop
     procedures for its program offices to use to identify, evaluate, and
     perform a risk assessment of the evaluator-research subject
     relationship in order to assess research and evaluation grant
     applications for actual and potential conflicts of interest. This
     recommendation can be closed when OJP provides evidence that it has
     developed and implemented these procedures.




                                   40

                                      
